Nos. 19-1257 & 19-1258

3in the buprente Court of the Multeb Otero
MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.,
PETITIONERS,

v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
RESPONDENTS.

ARIZONA REPUBLICAN PARTY, ET AL.,
PETITIONERS,

v.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
RESPONDENTS.

On Writs of Certiorari to the
U.S. Court of Appeals for the Ninth Circuit
BRIEF FOR THE CATO INSTITUTE
AS AMICUS CURIAE
SUPPORTING NEITHER SIDE
ILYA SHAPIRO
Cato Institute
1000 Mass. Ave., N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org
December 4, 2020

1

QUESTIONS PRESENTED
This Court granted certiorari to review whether (1)
Arizona's "out-of-precinct policy," which doesn't count
provisional ballots cast in person outside the voter's
designated precinct, and (2) "ballot-collection law,"
which permits only certain persons (family and
household members, caregivers, mail carriers, and
elections officials) to handle another person's
completed early ballot, comply with Section 2 of the
Voting Rights Act (VRA) and the Fifteenth
Amendment. But regardless whether the Court
upholds or invalidates those particular Arizona laws,
it must address the following questions:
Has the dissonance in VRA Section 2 votedenial standards resulting from different circuit
tests created a need for a bright line rule?
With VRA Section 5 inoperable until and unless
Congress enacts a new and constitutionally
sound coverage formula, should Section 5's antiretrogression standards—effectively preventing
any changes in election regulation that could be
construed as "tightening the rules"—be
judicially transferred into Section 2?

11

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
TABLE OF AUTHORITIES

iii

INTEREST OF AMICUS CURIAE

1

INTRODUCTION AND
SUMMARY OF ARGUMENT

2

ARGUMENT

5

I. The Lack of Clear Guidance on Vote-Denial
Cases Has Resulted in a Patchwork of
Standards

5

Lower Courts Are Unclear what the Proper
Evidentiary Standard Is to Prove a
Discriminatory Burden

9

The Seventh Circuit Uniquely Held That
Discrimination Must Be Specifically
Caused by the Defendant

11

Lack of a Clear Rule Led to Opposing
Section 2 Analyses in Two Fourth Circuit
Cases

12

The Ninth Circuit's Interpretation of
Discriminatory Burden Exemplifies the
Conflicting Circuit Standards

13

II. VRA Section 5 Standards Shouldn't Be
Imported into Section 2

16

III. Inconsistency in Judicial Outcomes Undermines
the Integrity of America's Electoral System
and Inhibits State Legislatures
19
CONCLUSION

21

111

TABLE OF AUTHORITIES
Page(s)
Cases
City of Mobile v. Bolden, 446 U.S. 55 (1980)

5

Democratic Nat'l Comm. Hobbs,
948 F.3d 989 (9th Cir. 2020) (en banc).. 7, 13, 14, 15
Democratic Nat'l Comm. v. Reagan,
329 F. Supp. 3d 824 (D. Ariz. 2018)

6, 7

Democratic Nat'l Comm. v. Reagan,
904 F.3d 686 (9th Cir. 2018) (panel)

13, 14

Frank v. Walker,
768 F.3d 744 (7th Cir. 2014)

passim

League of Women Voters of N.C. v. North Carolina,
769 F.3d 224 (4th Cir. 2014)
3, 12, 15, 17
Lee v. Va. State Bd. of Elections,
843 F.3d 592 (4th Cir. 2016)

3, 12, 13

N.C. State Conf. of the NAACP v. McCrory,
997 F. Supp. 2d 322 (M.D.N.C. 2014)
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016)

17
6, 8, 10, 19

Reno v. Bossier Parish Sch. Bd.,
528 U.S. 320 (2000)
Shelby County v. Holder, 570 U.S. 529 (2013)
Thornburg v. Gingles, 478 U.S. 30 (1986)
Veasey v. Abbott, 830 F.3d 216
(5th Cir. 2016) (en banc)

18
2
5, 6
passim

iv
Statutes
52 U.S.C. § 10301(a)

5, 16

Other Authorities
Abigail Thernstrom, "The Messy, Murky Voting
Rights Act: A Primer," Volokh Conspiracy,
Aug. 17, 2009

18

Charlie Savage, "G.O.P.-Appointed Judges
Threaten Democracy, Liberals Seeking Court
Expansion Say," N.Y. Times, Oct. 16, 2020

3

Dale E. Ho, Building an Umbrella in a Rainstorm:
The New Vote Denial Litigation Since Shelby
County, 127 Yale L.J. F. 799 (2018)

9

Daniel P. Tokaji, Applying Section 2 to the New Vote
Denial, 50 Harv. C.R.-C.L. L. Rev. 439 (2015)
8
Daniel P. Tokaji, The New Vote Denial: Where
Election Reform Meets the Voting Rights Act,
57 S.C. L. Rev. 689 (2006)

8

H.R. Rep. No. 109-478 (2006)

19

Kenneth L. Marcus, The War Between Disparate
Impact and Equal Protection,
2008-2009 Cato Sup. Ct. Rev. 52 (2009)

15

Maya Noronha, New Applications of Section 2 of
the Voting Rights Act to Vote Denial Cases,
18 Fed. Soc'y Rev. 32 (2017)
12, 17, 19
Pippa Norris et al., The Electoral Integrity Project,
Electoral Integrity in the 2018 American
Elections (2019)
20
Reid Wilson, "Study Ranks Best, Worst States for
20
Electoral Integrity," The Hill, Dec. 28, 2016

1
INTEREST OF AMICUS CURIAE1
The Cato Institute is a nonpartisan public policy
research foundation dedicated to advancing individual
liberty and free markets. Cato's Robert A. Levy Center
for Constitutional Studies promotes the principles of
limited constitutional government that are the
foundation of liberty. Cato publishes books and
studies, conducts conferences, and produces the
annual Cato Supreme Court Review.
Although the Arizona laws here almost certainly
comply with the Voting Rights Act—a majority of
states require in-precinct voting and nearly half limit
ballot collection (also known as "harvesting")—Cato
submits this brief in support of neither side. That's
because the need to set clear standards for vote-denial
claims under Section 2 of the VRA is more important
than whether these two laws stand or fall. The lower
courts' .divergent jurisprudential rubrics result in
ambiguous voting rights and leave state legislatures
unable to pass laws without legal uncertainty. Unclear
laws and unnecessary litigation caused by nebulous
standards undermine the legitimacy of our political
institutions. Given the reforms we're bound to see as
states adjust their procedures once the pandemic
(hopefully) abates and to remedy the flaws exposed by
the 2020 process, clear rules are necessary to promote
judicial uniformity and the rule of law.

Rule 37 statements: All parties filed blanket consents to the
filing of this brief. No party's counsel authored any part of this
brief; amicus alone funded its preparation and submission.

2
INTRODUCTION AND
SUMMARY OF ARGUMENT
After the contentious election that we've just
witnessed, this case presents an opportunity to make
future elections cleaner and less litigious, with results
that inspire greater public confidence. Those salutary
outcomes turn not on whether this Court allows the
two specific electoral regulations at issue, in Arizona
or elsewhere, but on whether it provides a clear
framework by which lower courts are to evaluate
Voting Rights Act (VRA) Section 2 claims.
On the surface, this case involves two common
state laws: (1) in-person voters must cast their ballots
in their assigned precinct and (2) third parties can't
harvest ballots (with narrow exceptions for family
members and the like). The Court presumably took the
case not simply to rule on precinct-based voting or
ballot harvesting, but to hand down general rules for
evaluating VRA Section 2 vote-denial cases. Although
such cases rarely came to the Court before Shelby
County v. Holder, 570 U.S. 529 (2013), disabled
Section 5 preclearance requirements, they have since
understandably become the focal point of election
litigation. That's why it's crucial that the Court
provide guidance on how to evaluate them.
Without a proper guide for Section 2 vote-denial
cases, lower courts have attempted to fashion coherent
standards for considering alleged violations, but a split
has emerged—and is growing. Questions regarding
the evidentiary standard that must be met to establish
a discriminatory burden remain unanswered. Lack of
uniformity has led to virtually identical laws being
declared a Section 2 violation in one state but not in

3
another, merely because the states are located in
different circuits. Compare, e.g., Frank v. Walker, 768
F.3d 744, 753 (7th Cir. 2014) (approving Wisconsin's
voter ID law) with Veasey v. Abbott, 830 F.3d 216 (5th
Cir. 2016) (en banc) (disapproving Texas's voter ID law
in a splintered opinion that also reversed the district
court's finding of discriminatory intent).
Spreading beyond inter-circuit disagreement,
circuits are clashing within themselves, unable to
agree on the proper methodology for evaluating
Section 2 interpretation. The Fourth Circuit
illustrated this dynamic with two separate panels
reaching opposite results over voter ID laws in North
Carolina and Virginia, respectively, because of
differing Section 2 interpretations. See League of
Women, Voters of N.C. v. North Carolina, 769 F.3d 224
(4th Cir. 2014) (enjoining state law); Lee v. Va. State
Bd. of Elections, 843 F.3d 592 (4th Cir. 2016)
(affirming ruling in favor of state law).
A similar situation arose below. While a threejudge panel agreed with a district court's analysis, a
splintered en banc panel reversed the decision after
disagreeing with the standards used to evaluate the
Section 2 claims. Without a clear rule, there is every
chance that any change in voting rules, from polling
hours to cure periods for faulty absentee ballots, will
draw a challenge, and might be upheld one year only
to be struck down the next.
Judicial inconsistencies create a legal environment
where the result of a case may no longer be decided by
precedent, but rather by what panel of judges a state
happens to draw for its case. Legislatures are left
unable to change electoral regulations without an

4
unending cloud of uncertainty as to their legality. In
the end, the ultimate result of these contradictory
conclusions is an increasingly partisan view of the
judiciary, diminishing the perceived legitimacy of our
third branch of government. See, e.g., Charlie Savage,
"G.O.P.-Appointed Judges Threaten Dethocracy,
Liberals Seeking Court Expansion Say," N.Y. Times,
Oct. 16, 2020, https://nyti.ms/2Vrrphi.
Further threatening to upend legal predictability is
a push to meld Section 5's "retrogression" standard—
which sought to prevent the reduction of minority
electoral power—into Section 2. Section 5 stood as a
powerful tool of federal oversight when states were
still rife with systemic racial disenfranchisement. But
Section 2 was never meant to have the same
overbearing control, instead serving as a guarantor of
voting rights in individual cases where claims of racial
discrimination arise. Any explanation of Section 2's
proper standards should clarify that, unlike under the
Section 5 rubric, there can be no violation without a
finding of actual racial discrimination.
Now presented with the opportunity to correct all
this confusion, this Court should hand down a brightline rule so courts, state legislatures, and citizens alike
properly understand Section 2's protections. We need
clarity and stability in the law, lest states continue to
hesitate to standardize voting practices and make
other reforms, whether related to what we've learned
about voting during the pandemic or for other reasons.
As it stands, with our current patchwork of often
conflicting standards, any new expansion of voting
times or methods—including mail-in balloting in light
of COVID-19—may be deemed the new constitutional
minimum in some states, even as others use "lesser"

5
procedures without legal concern. This past month
since the presidential election has demonstrated the
critical need to resolve such ambiguities not just for
Arizona or for precinct-voting and ballot-harvesting
rules, but for all voting-rights cases going forward.
ARGUMENT
I. The Lack of Clear Guidance on Vote-Denial
Cases Has Resulted in a Patchwork of
Standards
Enacted to reinforce the Fifteenth Amendment, the
Voting Rights Act of 1965 (VRA) provided a means to
enforce the promise of voting protection for all citizens.
An immense success, minority participation in
elections skyrocketed in the decades that followed.
Section 2 of the VRA encompasses two distinct claims:
vote dilution and vote denial. Vote-dilution cases
involve districting that minimizes the voting strength
of racial minorities, so they have practically no chance
to elect candidates of their choice, whereas vote-denial
cases involve state action that seeks to prevent
minority participation in voting altogether.
After this Court held in City of Mobile u. Bolden,
446 U.S. 55 (1980), that Section 2 required a showing
of purposeful discrimination, Congress amended
Section 2 to contain a "results test":
No voting qualification or prerequisite to voting
or standard, practice, or procedure shall be
imposed or applied by any State or political
subdivision in a manner which results in a
denial or abridgement of the right of any citizen
of the United States to vote on account of race of
color.

6
52 U.S.C. § 10301(a) (emphasis added). After that
1982 amendment, the Court decided Thornburg v.
Gingles, 478 U.S. 30 (1986), which provides current
guidance for Section 2 cases.
Gingles instructed that, once a court determines
that a rule burdens voting, it should consider the
totality of the circumstances as to whether there's a
violation of Section 2, as informed by nine largely
subjective factors. See Gingles, 478 U.S. at 43-45. The
Sixth Circuit has elaborated that "in response to a step
two inquiry, a disparate impact in the opportunity to
vote is shown to result not only from the operation of
the law, but from the interaction of the law and social
and historical conditions that have produced
discrimination." Ohio Democratic Party v. Husted, 834
F.3d 620, 638 (6th Cir. 2016).
The problem with the Gingles factors is that they
"are not exclusive . . . there is no requirement that any
particular number of factors be proved, or that a
majority of them point one way or the other." Veasey,
830 F.3d at 246. With the immense discretion courts
have in applying those factors, it is hard to imagine a
cohesive body of law coming together if each circuit has
the ability to weigh them as it sees fit.
No case presents a more apt example of judicial
discretion dictating a result than the one now before
this Court. After an extensive 10-day bench trial, the
district court here found that past discrimination in
Arizona had "lingering effects on the socioeconomic
status of racial minorities," but to suggest that those
past indiscretions could still provide the necessary
causation element between Arizona's election
regulations and any disparate burden for a Section 2

7
violation was "too tenuous to support." Democratic
Nat'l Comm. v. Reagan, 329 F. Supp. 3d 824, 878 (D.
Ariz. 2018). For if the court had accepted that
causation approach, "virtually any aspect of a state's
election regime would be suspect as nearly all costs of
voting fall heavier on socioeconomically disadvantaged
voters . . . [as well as] potentially . . . sweep away any
aspect of a state's election regime in which there is not
perfect racial parity." Id. The court concluded that the
high causation standard of Section 2 had not been met.
After the Ninth Circuit panel affirmed the district
court, the en banc court assessed the Gingles factors
for itself and, in the light of Arizona's full record of
discrimination—going back to its territorial period—
found that the district court had minimized that
history's significance. See Democratic Nat'l Comm.
Hobbs, 948 F.3d 989, 1016-26 (9th Cir. 2020) (en
banc). The en banc court also noted that the district
court minimized the importance of the racial disparity
in state elected officials. Id. at 1029. After correcting
the district court's errors, the en banc court held that
the Gingles factors conclusively favored the plaintiffs.
Differences between the district court and en banc
court's analysis should raise an alarm. Neither court
applied a clear standard for determining the
appropriate weight to assign each Gingles factor;
neither decision is necessarily wrong under this
Court's precedent. Focusing on Arizona's recent
achievements toward equality rather than its darker
history, the district court ruled for the state. Reagan,
329 F. Supp. at 873-76. Believing that Arizona's
history is pivotal in revealing a long line of
discrimination that continues to this day, the en banc
panel ruled for the challengers. Hobbs, 948 F.3d at

8
1025-26. Both courts read the same evidentiary record
and applied the same vague guideline about a "history
of discrimination"—and reached opposite conclusions.
The lack of legal certainty from such a subjective style
of analysis should give this Court pause and reinforce
the critical need for reform.
"While vote-dilution jurisprudence is welldeveloped, numerous courts and commentators have
noted that applying Section 2's results test to votedenial claims is challenging, and a clear standard for
its application has not yet been conclusively
established." Husted, 834 F.3d at 636; see also Veasey,
830 F.3d at 243-44 ("[T]here is little authority on the
proper test to determine whether the right to vote has
been denied or abridged on account of race."); Daniel
P. Tokaji, The New Vote Denial: Where Election Reform
Meets the Voting Rights Act, 57 S.C. L. Rev. 689, 709
(2006) ("A clear test for Section 2 vote denial claims ...
has yet to emerge").
With lower courts determining how to fashion their
own workable vote-denial test, three slightly different
tests have emerged in the Fourth, Fifth, Sixth, and
Seventh Circuits. Unfortunately, any variation in
these tests means that there is the possibility of a law
being upheld in one state as Section 2-compliant, only
to be enjoined as a violation in another, without ever
really knowing why. Two prevalent issues that have
been especially problematic for continuity across the
circuits are the interplay between causation and
intent, and what role social and historical conditions
play in a vote-denial analysis. See Daniel P. Tokaji,
Applying Section 2 to the New Vote Denial, 50 Harv.
C.R.-C.L. L. Rev. 439, 451 (2015).

9
A. Lower Courts Are Unclear what the
Proper Evidentiary Standard Is to Prove a
Discriminatory Burden
There is a general consensus that the first step to a
vote-denial claim is that "the challenged standard,
practice, or procedure must impose a discriminatory
burden on members of a protected class, meaning that
members of the protected class have less opportunity
than other members of the electorate to participate in
the political process and to elect representatives of
their choice." Veasey, 830 F.3d at 244.
Circuits already disagree on how to implement this
first step. There is tension regarding whether "a
plaintiff must demonstrate that a challenged practice
has measurably reduced total levels of minority
turnout (either in an absolute sense or relative to
white turnout)." Dale E. Ho, Building an Umbrella in
a Rainstorm: The New Vote Denial Litigation Since
Shelby County, 127 Yale L.J. F. 799, 809 (2018). The
Fourth, Fifth, and Ninth Circuits have all held that
turnout evidence is not necessary, while the Sixth and
Seventh Circuits "appear to require something more:
namely, evidence concerning the effect of the
challenged practice on voter turnout." Id. at 810.
For example, both Wisconsin and Texas passed
laws requiring voters to show a from of identification
from an approved list to vote in person. See Frank v.
Walker, 768 F.3d at 753; Veasey, 830 F.3d at 256.
Although the plaintiffs in both cases introduced
evidence that racial minorities are less likely to
possess appropriate ID, the Seventh and Fifth Circuit
came to different conclusions as to the laws'
compliance with the VRA.

10
Indisputably, a burden on voting existed with both
ID laws, but the Seventh Circuit determined that the
plaintiffs "[did] not show a denial of anything . . .
unless Wisconsin makes it needlessly hard to get photo
ID. Because every citizen has an equal opportunity to
get a photo ID, Wisconsin's ID requirement did not
violate anyone's voting rights." Walker, 768 F.3d at
461 (cleaned up). Meanwhile, the Fifth Circuit found
that there was a disparate impact and moved on to the
second step of analysis when experts estimated that,
out of the about four percent of Texas voters who
lacked the appropriate ID, "Hispanic registered voters
and Black registered voters were respectively 195%
and 305% more likely than their Anglo peers to lack
the proper ID." Veasey, 830 F.3d at 250.
The difference between the two tests is striking.
The Seventh Circuit held that a law only meets the
level of discriminatory burden if a state makes
something needlessly hard to do, while the Fifth
Circuit moved forward in its analysis toward
invalidating law after finding that the law only
imposed a new (and not necessarily insurmountable)
burden on racial minorities within a subgroup of four
percent of registered voters. And then, similar to the
Seventh Circuit, the Sixth Circuit clarified its
approach to the first step by cautioning that it should
not be "construed as suggesting that the existence of a
disparate impact, in and of itself, is sufficient to
establish the sort of injury that is cognizable and
remediable under Section 2." Husted, 834 F.3d at 637.
The first element "requires proof that the challenged
standard . . . casually contributes to the alleged
discriminatory impact." Id. at 638.

11
In sum, even slight adjustments to the burden
required under the VRA sets the circuits on different
directions. Without clear direction on how to
determine what a discriminatory burden is, a lower
court could, in theory, make compliance with Section 2
as easy or hard as it wishes.
B. The Seventh Circuit Uniquely Held That
Discrimination Must Be Specifically
Caused by the Defendant
One of the most noticeable deviations from the twostep test for evaluating vote-denial claims is that the
Seventh Circuit makes a point that the "causation"
portion of step two should distinguish between active
discrimination by state or local election officials and
discriminatory effects stemming from some other
social or historical factors. Walker, 768 F.3d at 755.
The court noted that the district judge tried to explain
his finding that the ID law violated Section 2 because
minorities are disproportionately likely to lack an ID
due to their increased likelihood of living in poverty,
which in turn is traceable to the effects of
discrimination in education, employment, and
housing. Id. at 753. The court specially noted that the
district judge never directly blamed Wisconsin because
"units of government are responsible for their own
discrimination but not for rectifying the effects of other
persons' discrimination." Id.
So far, the Seventh Circuit is an outlier in its
Section 2 vote-denial analysis—and that uniqueness
could translate into wildly different laws being Section
2-compliant than in other circuits. This possibility is
already clear without even a majority of the circuit
courts' having weighed in on these issues post-Shelby

12
County. Before more circuits create their own slightly
different frameworks, this Court should craft a
uniform rule of evaluation, so Section 2 can properly
function as the defense against discriminatory voting
laws and actions that it was designed to be.
C. Lack of a Clear Rule Led to Opposing
Section 2 Analyses in Two Fourth Circuit
Cases
Even more troubling than circuit splits on Section
2 interpretation, however, is disunity within a circuit.
On their face, two cases in the Fourth Circuit saw two
different types of Section 2 analysis solely because of
the panels drawn for the case. See Maya Noronha, New
Applications of Section 2 of the Voting Rights Act to
Vote Denial Cases, 18 Fed. Soc'y Rev. 32 (2017).
In League of Women Voters of N.C. v. North
Carolina, the Fourth Circuit chastised a district court
for suggesting that a Section 2 violation may not have
occurred because, even though same-day registration
was no longer available, the burden to register was
minimal because voters could easily register by mail
instead. 769 F.3d at 243. The court "relieved the
plaintiffs of the requirement of actually showing a
denial of the right to vote, finding instead that 'nothing
in Section 2 requires a showing that voters cannot
register or vote under any circumstances."' Noronha,
supra, at 34 (quoting League of Women Voters, 769
F.3d at 243).
Conversely, in Lee v. Va. State Bd. of Elections, a
different Fourth Circuit panel found that "a complex §
2 analysis is not necessary to resolve this issue because
the plaintiffs have simply failed to provide evidence

13
that members of the protected class have less
opportunity than others to participate in the political
process." 843 F.3d at 600. The court classified
obtaining an ID as a mere inconvenience to a voter,
rather than a substantial burden—but explained that
if Virginia had required IDs but not accommodated
citizens who lacked them, there could possibly be a
deprival of an opportunity to vote. Id. at 601.
It appears that the League of Women Voters and Lee
panels based their decisions on very different views of
what constitutes a discriminatory burden. Regardless
which of the two views the Court finds more
persuasive, the inconsistency in the law within one
court has unsettling implications. At an extreme, the
result of a case could no longer be determined by
precedent, but by which judges a case draws.
Coincidentally—or perhaps not—these two
decisions were decided by panels of all-Democratappointed and all-Republican-appointed judges,
respectively. Judges naturally have their own judicial
philosophies, which will differ from their colleagues
and can lead to different case outcomes. But it is
imperative, especially in election law cases, that courts
have as little appearance of political bias as possible.
By sharpening the applicable standards and limiting
the amount of discretion judges have in VRA cases, the
Court would help preserve the integrity of and public
confidence in the judicial branch.
D. The Ninth Circuit's Interpretation of
Discriminatory Burden Exemplifies the
Conflicting Circuit Standards
The Ninth Circuit's own disparate rulings here are

14
a shining example of legal uncertainty. Compare
Democratic Nat'l Comm. v. Reagan, 904 F.3d 686 (9th
Cir. 2018) (panel) with Hobbs, 948 F.3d 989 (en banc).
The panel and en banc courts both analyzed Arizona's
OOP policy using the two-step inquiry seen in other
circuits, but had few similarities otherwise. Unclear as
to the appropriate way to determine a "discriminatory
burden," the en banc court (which of course in the
Ninth Circuit comprises only 11 of the court's 29
judges) arrived at a different conclusion than the
three-judge panel.
Focused on whether a material impact on the
opportunity for minorities to participate in the
political process and elect representatives of their
choice had occurred, the panel asked whether an
unusual burden to voting as a whole was present.
Reagan, 904 F.3d at 730. It opined that "a precinct
voting system, by itself, does not have such a casual
effect," id., but that if a state "implement[ed] . . . a
system in a manner that makes it more difficult for a
significant number of members of a protected group to
discover the correct precinct in order to cast a ballot"
it could meet the burden of giving minority voters less
opportunity. Id. at 731. With only 3,970 out of
2,661,497 total votes, or 0.15 percent, not cast in the
correct precinct in the 2016 general election, the
burden of in-precinct voting was deemed minimal and
not abridging minority opportunity. Id. at 729. Like
the Seventh Circuit, the panel looked beyond whether
a mere burden existed, but rather how extensive the
burden was on the overall ability to vote and elect a
preferred representative. See Walker, 768 F.3d 744.
Instead of inquiring whether a discriminatory
burden to voting existed as a whole, the en banc court

15
determined that a burden could be established using
truncated data similar to the Fifth Circuit's analysis
in Veasey. Hobbs, 948 F.3d at 1014 (citing Veasey, 830
F.3d at 256-64). The opinion focused on the increasing
percentage of in-person ballots being cast out-ofprecinct as seen by "the absolute number of all inperson ballots [falling] more than the absolute number
of OOP ballots," id. at 1015, thereby increasing the
percentage of minorities burdened by the policy
compared to years prior. Even if that fact was ignored,
the panel concluded that the number of OOP ballots
cast in 2016 was substantial enough to be cognizable
under the results test, reversing the panel. Id. The
court bolstered its argument by pointing to League of
Women Voters, where the Fourth Circuit described a
district court's ruling that 3,348 ballots was de
minimis as a "grave error." 769 F.3d at 241.
Even though the panel and en banc court came to
opposite conclusions by using different frameworks,
their dissonance was aggravated by dueling citations
to the Fourth Circuit's conflicting cases described
above, Lee and League of Women Voters. The impact of
varying approaches to discriminatory burden analysis
has already spread beyond the internal struggles of
the Fourth Circuit. Without a set framework for
explaining how claims of Section 2 violations are to be
evaluated, courts will continue to see conflicting
results as the Ninth Circuit has. This holds especially
true for circuits that have not yet had the opportunity
to rule on a case involving discriminatory burden.
Instead of allowing the continued fracture of
Section 2 interpretation, this Court should render
clear rules for lower courts to follow. For maximum
clarity, it would be wise for the rule to pointedly

16
distinguish between discriminatory intent and
disparate impact. Cf. Kenneth L. Marcus, The War
Between Disparate Impact and Equal Protection, 20082009 Cato Sup. Ct. Rev. 52 (2009) (describing the same
tension regarding the use of race in employment).
Although Section 2 now contains a "results test," the
text still requires those results to be "on account of race
or color." 52 U.S.C. § 10301(a). Despite that language,
the confusion around the necessity of intent continues
to pervade court interpretations that find disparate
impact to be ipso facto proof of intent. Such a reading
raises several possible interpretive and constitutional
issues, as noted in the Pacific Legal Foundation's
amicus brief in this case, which this Court could put to
rest with a bright-line rule that explains the role that
both intent and impact play in vote-denial analysis.
II. VRA Section 5 Standards Shouldn't Be
Imported into Section 2
As racial disenfranchisement diminished, the
tension between states' prerogative to conduct their
own elections and the VRA's Section 5 federal
preclearance regime became untenable. When Shelby
County made the obvious point that Section 4's
coverage formula was unconstitutional because it
hadn't been updated in decades and thus didn't reflect
current realities, Section 2 became a more prominent
vehicle for litigation—as it should have, to challenge
potential instances of racial disenfranchisement. The
problem is that courts have been running on a largely
open field, with little guidance from this Court on how
to evaluate Section 2 claims.
Shelby County may have rendered Section 5
inoperative until and unless Congress passes a new

17
coverage formula, but that doesn't mean that Section
5's purposes and standards can or should be snuck into
Section 2. Section 2 and Section 5 were written with
two separate purposes and remedy different
constitutional concerns. The Court should be wary of
attempts to muddy the waters by combining them.
Indeed, such a distortion of Sections 2 and 5 took
place in the litigation over North Carolina's 2013
omnibus election reform bill. The district court viewed
the Section 2 inquiry before it as whether minorities
had "an equal opportunity to easily register to vote."
N.C. State Conf of the NAACP v. McCrory, 997 F.
Supp. 2d 322, 350 (M.D.N.C. 2014). Even though
North Carolina had eliminated its same-day
registration, which minority voters may have
preferred to use, there were various other methods to
register to vote that on net did not reduce the
opportunity to do so. Id. at 351. Taking special notice
that the plaintiffs incorporated a retrogression
standard into their argument, the court clarified that
it was "not concerned with whether the elimination of
[same-day registration] will worsen the position of
minority voters in comparison to the preexisting
voting standard, practice or procedures—a Section 5
inquiry." Id. at 352. The simple remark provided a
clear distinction between the two sections, but on
appeal, the Fourth Circuit blurred that line.
Instead of comparing "whether minorities had less
of an opportunity to vote than whites under the new
election law scheme, as courts have long done in their
Section 2 analyses," the Fourth Circuit turned its
attention to whether the change in laws decreased
minorities' opportunity to vote as compared to before
the law was enacted. Noronha, supra, at 34 (citing

18
League of Women Voters, 769 F.3d at 241-42).
Justifying its retogression analysis, the Fourth Circuit
pointed to a section 5 case "to conclude that Section 2
analysis 'necessarily entails a comparison' and
requires 'some baseline with which to compare the
practice."' Id. (quoting Reno v. Bossier Parish Sch. Bd.,
528 U.S. 320, 333-34 (2000)). Integration of Section 5
into Section 2 is no longer a theoretical concern, but is
actively becoming a part of Section 2 jurisprudence.
Moreover, Section 2 is an inappropriate substitute
for Section 5, which has a particular history and
rationale. The former has always applied nationally to
enforce the Fifteenth Amendment's guarantees, while
the latter was an extraordinary provision to oversee
jurisdictions where racial disenfranchisement couldn't
be policed through normal enforcement practices.
Most jurisdictions subject to preclearance were located
in the South, as a result of Jim Crow and decades of
racial disenfranchisement. The overwhelming power
of the prohibition on retrogression created a protective
barrier for minorities to exercise their right to vote in
the face of systematic attempts to silence them. But
imprecise changes in the statistical trigger caused
seemingly arbitrary changes in which jurisdictions
became subject to Section 5. For example,
amendments to the Voting Rights Act in the 1970s
caused three New York City boroughs (but not the
other two) to become subject to preclearance even
though black New Yorkers had been freely voting since
the Fifteenth Amendment's enactment in 1870, and
had held municipal offices for decades. Abigail
Thernstrom, "The Messy, Murky Voting Rights Act: A
Primer," Volokh Conspiracy, Aug. 17, 2009,
https://bit.ly/33qpq0Q.

19
Of course, the authority Section 5 bestowed on the
federal government was never meant to be permanent.
The provision had a five-year expiration date and was
intended as a temporary stopgap to address egregious
practices. After several reauthorizations, Congress
even conceded that "many of the first generation
barriers to minority voter registration and voter
turnout that were in place prior to the VRA have been
eliminated." See H.R. Rep. No. 109-478, 12 (2006).
Regardless whether Section 5 ought to be revived,
subjecting the entire country to its extraordinary
standards and remedies through Section 2 is not only
inappropriate, it's a constitutional malapropism.
Moreover, imputing a national anti-retrogression
standard into Section 2 would create a one-way ratchet
on voting regulations. "If that were to happen, once
any increase in voting periods or expanded procedures
is passed, states would only be allowed to 'add to but
never subtract from' that baseline. Any reforms
reining in expansive laws would be struck down by the
court." Noronha, supra, at 34-35 (quoting Husted, 834
F.3d at 623). The very thing the VRA was created to
do—secure and protect the opportunity to vote—would
be stymied by such a globally applied standard.
III. Inconsistency in Judicial Outcomes
Undermines the Integrity of America's
Electoral System and Inhibits State
Legislatures
Political stability is the hallmark of a mature
democracy. One of the most important factors in that
political stability is a citizenry that believes it has the
opportunity to participate in free and fair elections.
This perception is compromised when state

20
legislatures enact laws that are viewed by the public
as illegitimate—especially if one state has a law
adjudicated to be a VRA violation while a similar law
exists in another state without legal problem.
The need for a uniform understanding of Section 2
is highlighted by decreasing confidence in the integrity
of America's electoral system. With partisan
polarization rapidly rising in American elections since
2000, lawyers have increasingly "thrown their hats in
the ring" to challenge "virtually every aspect of
election administration." Reid Wilson, "Study Ranks
Best, Worst States for Electoral Integrity," The Hill,
Dec. 28, 2016, https://bit.ly/3orrMoX.
Unsurprisingly, many of the states that have the
lowest election integrity scores are those that most
frequently in legal battles over election reforms and
redistricting. Pippa Norris et al., The Electoral
Integrity Project, Electoral Integrity in the 2018
American Elections (2019). Providing bright-line rules
for legislatures to follow would be a good start to
decrease the number of election lawsuits that result
from an ambiguous nationwide standard.

21
CONCLUSION
With an increase in vote-denial claims—though
without evidence of actual vote denial, at least not if
judged by racial disparities in voting and overall
turnout rates—this Court should set out a clear
interpretive method that courts can follow nationwide.
Without that basic framework, any change in voting
rules can draw a legal challenge and might be upheld
one year only to be struck down based on new data the
next. However the Court rules on the two Arizona laws
at issue here, it must lay out a clear jurisprudential
framework for evaluating Section 2 claims, free of
balancing tests and other subjective standards that
are grist for result-oriented and public-confidencedestroying judging.
Respectfully submitted,
ILYA SHAPIRO
Cato Institute
1000 Mass. Ave., N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org
December 4, 2020

